IN THE SUPREME COURT OF THE UNITED STATES

IN RE BARBARA STONE
Petitioner

SUPPLEMENTAL BRIEF
To Petition for a Writ of Prohibition and
Writ of Mandamus to the
Eleventh Circuit Court of Appeals;
Southern District Court of Florida Judge Joan Lenard
Southern District Court of Florida Bankruptcy Non-Article III Judge Laurel Isicoff
Judge Carol Lisa Phillips, 17th Circuit Court in Broward County, Florida
Judge Milton Hirsch, 11th Circuit Court in Miami-Dade, Florida

SUPPLEMENTAL BRIEF TO WRIT OF PROHIBITION
AND WRIT OF MANDAMUS;
AND SUPPORTING MEMORANDUM OF LAW

BARBARA STONE, Petitioner
19 West Flagler St. Ste. 404
Miami, FL 33130
Tel. No. 786.696.7816
Barbara.stone.usa@gmail.com
October 17, 2020

RECEWED
OCT 2 2 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

SUPPLEMENTAL BRIEF
I. INTRODUCTION
This Supplemental Brief to Petitions for Writ of Prohibition and Mandamus (the
"Petitions") sets forth newly discovered and occurring extrajudicial acts including:
the void quorum-less 11th circuit order (Article V, A) issued with regard to the
lawless orders by Southern District Court of Florida Judge Joan Lenard in the
Federal matter (Case No: 15-20150) that is the subject of this Petition; and
a newly issued illegal state court order by disqualified Milton Hirsch, a
jurisdiction-less judge in State court (Miami-Dade case no 19-4417) that is the
subject of this Petition that abets the theft of estate assets by Mark Raymond, a
corrupt officer of the court acting in criminal conflict of interest (Article V, B).
As set forth in Rule 20, the Petitions and this Supplemental Brief
demonstrate:
the unbridled lawlessness that festers in state and federal courts that
require the aid of this Court's appellate jurisdiction (Article V-VI),
the exceptional and extraordinary circumstances whereby Petitioner's
home, life savings and rights are being stolen by illegal acts of judges
acting above the law warranting the exercise of this Court's powers
that cannot be discretionary (Article XII);
that adequate relief cannot be obtained in any other form or from any
other court (Article XIII).
Moreover, it is unconscionable and immoral that Petitioner is forced to file this
Petition and wade through a mountain of crimes and fraud (See Cox and Dodd cases
supra) seeking relief from having her home, life savings and rights stolen by lawless
judges criminally acting above the law, using fake, farcical, unlawful procedural
tactics in a pretense of legitimacy.
This Supreme Court itself should be outraged at the diabolical, conniving schemes
perpetrated by the lawless judges involved in this monstrous hotbed of crimes.

ii

II.

CONCURRENT FILING

Reference should be made to Article IX and Supplement One filed concurrently
herewith whereby Petitioner does not consent to, objects to and does not recognize
the jurisdiction of any law clerk, attorney or any other party involved in this matter
including any review, recommendation or other involvement in this precedent
setting, exceptional matter mired in corruption, fraud on and by the court and
criminal activities except the direct and sole review by the Justices themselves.
Reference should also be made to Article X and Supplement One regarding
Petitioner's respectful request for sua sponte recusal of Justice Clarence Thomas.
III. CERTIFICATE OF INTERESTED PERSONS
Pursuant to Supreme Court Rule 14, the following is a list of all parties to the
proceeding in the court whose judgment is sought to be reviewed:
Barbara Stone, Petitioner, a former attorney and a woman naturally born in one of
these United States.
Respondents are as follows:
the 11th Circuit Court of Appeals;
Judge Joan Lenard, Southern District Court of Florida
Magistrate Jonathan Goodman, Southern District Court of Florida
Non-Article III Judge Laurel Isicoff, Southern District Bankruptcy Court of
Florida
Roy R. Lustig
Media and other interested parties:
A. Prominent Law School Professors
Erwin Chemerinsky
Akhil Amar
Mark Tushnet
Jack Balkin
Laurence Tribe

University Of California, Berkeley
Yale University
Harvard University
Yale University
Harvard University

iii

Bruce Ackerman
Richard Fallon
Reva Siegel
Robert Post
Eugene Volokh
Michael Mcconnell
Randy Barnett
Michael Dorf
Martin Redish
Sanford Levinson
Barry Friedman
Lawrence Solum
David A. Strauss
Steven Calabresi
Douglas Laycock

Yale University
Harvard University
Yale University
Yale University
University Of California, Los Angeles
Stanford University
Georgetown University
Cornell University
Northwestern University
University Of Texas, Austin
New York University
Georgetown University
University Of Chicago
Northwestern University
University Of Virginia

Cass Sunstein
Richard Epstein
William Eskridge, Jr.
Frederick Schauer
Adrian Vermeule
Daniel Farber

Harvard University
New York University, University Of Chicago
Yale University
University Of Virginia
Harvard University
University Of California, Berkeley

B. Prominent Judicial And Court Watch Organizations and Think Tanks
Judicial Watch
Brookings Institution

Human Rights Watch
Center for American Progress

Freedom House
ACLU

Aspen Institute
Amnesty International

Heritage Foundation
Cato Institute

American Enterprise Institute
Urban Institute

Woodrow Wilson International Center for Scholars
Citizens for Responsibility and Ethics in Washington
Manhattan Institute for Policy Research
Center for Strategic and International Studies
Petitioner is unable to retain her own personal attorney as he feared for his safety
and livelihood and retaliation as a result of Joan Lenard's Ex Parte Illegal Void
Rights Extinguishment Order. Other Prominent Counsel and Professors including

iv

many set forth above in communication with Petitioner regarding representation
also expressed fear of retaliation and threats to their livelihood.
Because of the danger to the Constitution and rule of law; massive human rights
abuses and threat to the integrity of the American legal system, this matter is
submitted to law professors; judicial watch organizations; and media to publish and
report the extrajudicial acts and orders herein.
IV.

TABLE OF CONTENTS
Page

INTRODUCTION

ii

CONCURRENT FILING

iv

CERTIFICATE OF INTERESTED PERSONS

iv

TABLE OF CONTENTS

v

APPENDICES

xvi

TABLE OF AUTHORITIES

xviii

SUMMARY OF FEDERAL AND STATE MATTER AND NEWLY
DISCOVERED AND NEWLY OCCURING FRAUD

1

GLOBAL CONSTITUTIONAL CRISIS

8

EXTRAORDINARY AND EXCEPTIONAL CIRCUMSTANCES

10

ADEQUATE RELIEF CANNOT BE OBTAINED IN ANY OTHER FORM
OR FROM ANY OTHER COURT

13

PETITIONER RESPECTFULLY OBJECTS AND DOES NOT CONSENT
TO REVIEW OTHER THAN BY THE JUSTICES THEMSELVES

13

PETITIONER RESPECTFULLY REQUESTS SUA SPONTE RECUSAL
OF JUSTICE CLARENCE THOMAS

14

CONCLUSION

14

CERTIFICATE OF COMPLIANCE

16

CERTIFICATE OF SERVICE

16

v

APPENDICES
APPENDIX K

August 4, 2020 illegal void order of the 11th Circuit Court of
Appeals

APPENDIX L

October 16, 2020 Disqualified Hirsch Illegal Void Order

SUPPLEMENT
ONE

Petitioner does not consent to, objects to and does not
recognize the jurisdiction of any law clerk, attorney or any
other party involved in this matter and seeks the sua sponte
recusal of Justice Clarence Thomas
TABLE OF AUTHORITIES

Cox v. Burke, 706 So 2d 43 (Fla. 5th DCA 1998)

2

Dodd v. The Florida Bar, 118 So. 2d 17 (Fla. 1960)

2

Kenner v. Comm'r of Internal Revenue, 387 F.2d 689, 691 (7th Cir. 1968)...

3

Leo's Gulf Liquor v Lakhani 802 So 2d 337 (Fla, 3d DCA 2001)

4

Nguyen v. United States, 539 U.S.69, (2003)

4

Rosemond v. United States, 134 S. Ct. 1240 (2014)

3

CONSTITUTIONAL PROVISIONS
Article III, Section I of the Constitution

13

STATUTES
3

7 Moore's Federal Practice 2d ed
8 U.S. Code § 1324c

12

18 U.S.C. § 2

3

18 U.S.C. § 3

3

18 U.S.C. § 4

3

18 U.S.C. § 1001...

12
vi

18 U.S.C. § 1038...

12

18 U.S.C. § 1623

12

18 U.S.C. § 1962(d)

13

28 U.S.C. § 636

14

Florida Rules of Judicial Procedure 2.330 (j)

6

The Federalist Papers No. 78

9

JUDICIAL CANONS

Supplement One

vii

V.

SUMMARY OF FEDERAL AND STATE MATTER AND
NEWLY DISCOVERED AND NEWLY OCCURING FRAUD

This extraordinary matter is being closely watched by the legal community and the
global public who routinely contact Petitioner as they are appalled at the
lawlessness of judges who are enabling continuing criminal enterprises 1 to be
perpetrated in American courts are actively assisting Petitioner in uncovering the
swamp of criminal activities and fraud herein.
It is unjust and violates the integrity of the legal system to subject Petitioner to
uncover the overwhelming fraud in the continuing criminal enterprises being
perpetrated herein. As referenced in the Petitions:
In Cox v. Burke, 706 So.2d 43, 46 (Fla. 5th DCA 1998) the court stated:
"The integrity of the civil litigation process depends on truthful disclosure of
facts. A system that depends on an adversary's ability to uncover falsehoods is
doomed to failure, which is why this kind of conduct must be discouraged in
the strongest possible way."
In Dodd v. The Florida Bar, 118 So. 2d 17, 19 (Fla. 1960) the court stated:
"No breach of professional ethics, or of the law, is more harmful to the
administration of justice or more hurtful to the public appraisal of the legal
system than the knowledgeable use by an attorney of false testimony in the
judicial process. When it is done it deserves the harshest penalty".
It is lawless and immoral that Petitioner, a crime victim of an Artifice to
Defraud, is buried in a mound of fraud on the court in a sham, farcical
proceeding where judges act above the law.

1

21 U.S.C. § 848.

1

A-1 SUMMARY OF SOUTHERN DISTRICT COURT OF FLORIDA
FEDERAL MATTER
1. This matter is prima facie proven to be:
a. a Machiavellian felony scheme to defraud perpetrated by Respondent (the
"Artifice to Defraud") using U. S. courts to steal Petitioner's home and life
savings resulting in a void, illegal $1,700,000 judgment (the "Ex Parte Void
Illegal Fraudulent Judgment") by Southern District Court of Florida trial
judge Joan Lenard (App B to the Petitions) that is the product of:
a perjured, falsified, sham lawsuit by Respondent fabricating "injury" by
not being hired by a company that does not exist

and obscene

materials created by Respondent purporting to be "forwarded" emails
where it is shown Respondent perjured himself by falsely attributing
them to Petitioner;
extrajudicial conduct of judges who act above the law to facilitate the
Artifice to Defraud and civilly and criminally deprive Petitioner access
to the court; notice and the right to appear to defend her property.
b. a cover up of the Artifice to Defraud by the extrajudicial illegal void
order (the "Ex Parte Illegal Void Rights Extinguishment Order") by Joan
Lenard (App. C to the Petitions) that:
purports to dismantle this Supreme Court's jurisdiction and the
Constitution;
strips Petitioner of her inalienable Constitutional due process rights and
access to all courts;
illegally gags Petitioner and counsel from reporting crimes;
prohibits Petitioner's counsel from reporting attorney and judicial
wrongdoing in violation of attorney ethics;
misuses her power as a weapon to viciously retaliate against and
malign Petitioner by conjuring up fabricated "misdeeds" by Petitioner to
divert from the theft of her property and rights, and silence her from
reporting crimes;
2

vi. aids and abets the theft of assets of a vulnerable adult by Respondent to
fund the Artifice to Defraud.
2. The Ex Parte Void Illegal Fraudulent Judgment and the Ex Parte Illegal Void
Rights Extinguishment Order (collectively, the "Ex Parte Fraudulent Orders")
constitute criminal conspiracy with the Artifice to Defraud; violate fundamental
Constitutional due process; violate civil and criminal Federal laws; and are void
on their face.
3. The illegal, illiterate, "junk" order by the 11th circuit (A-2) is a scandalous
reflection to the world of the lawlessness of the American legal system.
4. The failure by any court to vacate the corrupt Ex Parte Fraudulent
Orders constitutes collusion and complicity. See:
Rosemond v. United States, 134 S. Ct. 1240, 1245 (2014)("[T]hose who provide
knowing aid to persons committing federal crimes, with the intent to
facilitate the crime, are themselves committing a crime").
42 U.S.C. §1986: "Every person who, having knowledge that any of the
wrongs conspired to be done, and mentioned in section 1985 of this title, are
about to be committed, and having power to prevent or aid in preventing the
commission of the same, neglects or refuses so to do, if such wrongful act be
committed, shall be liable to the party injured.."
18 U.S.C. § 2, 3, and 4 regarding accomplice, accessory and duty to report.
5. This matter goes far beyond "fraud on the court" defined by Kenner v. C.I.R., 387
F.3d 689 (7th Cir. 1968) to "embrace that species of fraud which does, or attempts
to, defile the court itself, or is a fraud perpetrated by officers of the court so that
the judicial machinery cannot perform in the usual manner its impartial task of
adjudging cases that are presented for adjudication." 7 Moore's Federal Practice,
2d ed., p. 512. Kenner stated "a decision produced by fraud upon the court
is not in essence a decision at all, and never becomes final."

3

Respondent is an unindicted felony who should be indicted for theft,
embezzlement, perjury, filing fraudulent documents, felony fraud and other
crimes. This aberration is all the more monstrous as Petitioner is entrapped in a,
web of Respondent's crimes in inextricably intertwined matters set forth in the
Petitions.
The foregoing unprecedented acts require mandatory not discretionary relief by
Writ of Mandamus and Prohibition.
This Supreme Court, the highest court in our country, cannot abet the use of
American courts for criminal purposes and destroy any semblance of legitimacy
to the legal system and must vacate the Ex Parte Fraudulent Orders.
A-2. SOUTHERN DISTRICT COURT OF FLORIDA
LATER DISCOVERED FRAUD
SET FORTH IN "QUORUM-LESS ORDER"
The August 4, 2020 illegal void order of the 11th Circuit Court of Appeals (the
"Void 11th Order") is App G to the Petition and App K hereto.
The unlawful 2 judge panel (MARTIN and JILL PRYOR) either do not know the
fundamental law requiring a three judge panel under 28 U.S. Code § 46 or ignore
the law either event making them unfit to hold office. The order is void both on
substantive grounds for colluding with Ex Parte Fraudulent Orders that abet
the theft of Petitioner's property and criminally strip her rights and it violates
Federal law requiring a 3 judge panel. Absent a quorum, no court is authorized
to transact judicial business. See Nguyen v. United States, 539 U.S. 69, (2003).
This bizarre, contradictory Void 11th Order would make any reasonable person
fear the capacity of judges who contradict themselves on its face:
a. The Void 11th Order states in the first sentence the purpose of Petitioner's
petition/appeal i.e.: "she asks us to "set aside" the district court's December

Leo's Gulf Liquor v Lakhani, 802 So 2d 337 where Respondent was found guilty of felony crimes
including perjury, fraud on the court, repeatedly lying under oath and subverting the court YET
NOT HELD ACCOUNTABLE thus masterminding and perpetrating diabolical inextricably
intertwined criminal enterprises against Petitioner.

2

4

2015 Omnibus Order and its June 2020 filing restriction order and issue an
emergency restraining order and orders for production."
However, on the very next page, these disingenuous judges contradict
themselves stating "Here, it is not clear what type of relief Stone seeks under
the All Writs Act, as she has failed to specify any specific type of writ."
These two extrajudicial judges cite 28 U.S.C. §1651 whereby they are granted
authority to issue the requested writ and state reasons why the district
court's orders are illegal and void, including human rights violations and a
filing restriction necessitating equitable and alternate relief, and thereafter
they FAIL TO COMPLY WITH THE LAW OR ADDRESS THE MERITS;
The jurisdiction-less judges cite irrelevant cases having no application;
These disingenuous judges denigrate Petitioner by alluding she is a "vexatious
litigant" and evidence an appearance of impropriety by attacking her Petition as
"rambling and difficult to follow" when by their own statements that is untrue as
they clearly state the relief requested by Petitioner.
The inane, meaningless recitations in the Void 11th Order constitutes "honest
services fraud."
The inane, intelligence insulting Ex Parte Fraudulent Orders and Void 11th
Order abets the Artifice to Defraud; obstructs Petitioner's justice; defiles the
integrity of the American legal system and makes apparent the insidious
collusion among the 11th Circuit and the district judges.
A-3 THE "QUORUM-LESS ORDER IS MERELY A DIVERSION
AND THIS SUPREME COURT MUST REMEDY AND VACATE
THE TRIAL COURT EX PARTE FRAUDULENT ORDERS
THAT ARE ILLEGAL AND VOID
The later discovered "quorum-less order" MERELY DIVERSIONS TO THE
ONE MILLION SEVEN HUNDRED THOUSAND DOLLAR ($1,700,000)
judgment (the "Ex Parte Void Illegal Fraudulent Judgment") issued in collusion

5

with Respondent's criminal scheme to defraud in this extrajudicial farce
perpetrated through and by the court.
What must be remedied by this Supreme Court is not simply the diversionary
void orders by the 11th Circuit.
This Supreme Court must provide mandated remedy and set aside and vacate
the illegal, void Ex Parte Void Illegal Fraudulent Judgment and "Ex Parte
Rights Extinguishment Order."
The Ex Parte Void Illegal Fraudulent Judgment and Ex Parte
Rights Extinguishment Order are and will always be void and
illegal.
The Ex Parte Void Illegal Fraudulent Judgment and Ex Parte Rights
Extinguishment Order are not subject to discretionary relief as by failing to
vacate and set aside this illegal judgment, the Supreme Court would be both:
setting a precedent authorizing the United States Courts to be used as
criminal enterprises to perpetrate schemes to defraud; and
abetting the theft of Petitioner's home, life savings and rights.
B-1 SUMMARY OF THE STATE COURT MATTER
21.As set forth in the Petition:
Disqualified Milton Hirsch did not file a response within 30 days to
Petitioner's Motion for his disqualification as required by Florida Rules of
Judicial Administration 2.330 (j) which provides that which provides that if
not ruled on within 30 days it shall be deemed granted.
Disqualified Hirsch illegally and without jurisdiction issues void illegal
orders depriving Petitioner of her Constitutional rights and property.
There has never been an adjudication of any substantive matter in
accordance with the Constitution.
The appellate court is complicit.
Carl Rosen, a corrupt officer of the court in this matter has a pattern and
history of conflict of interest. Carl Rosen is the subject of a lawsuit in
6

another matter that alleges he has violated attorney ethics and acting in
conflict of interest in estate matters.
It is prima facie proven that Carl Rosen and Mark Raymond are acting in
criminal conflict of interest as they illegally represent the estate, allege a
claim against the estate and the estate has a claim against them.
Petitioner is being extra judicially denied of her Constitutional and due
process rights by Disqualified Hirsch to have her substantive matters
meaningfully heard before a judge acting with jurisdiction.
B-2 NEWLY OCCURING FRAUD IN THE STATE COURT MATTER
22. Disqualified Milton Hirsch illegally and in criminal violation of Petitioner's due
process rights continues to issue void illegal orders in this matter.
23.0n October 16, 2020, Disqualified Milton Hirsch acting without jurisdiction
issued an illegal void fraudulent order (the "Disqualified Hirsch Illegal Void
Order") App. L.
In the Disqualified Hirsh Illegal Void Order issued by Disqualified Milton Hirsch
without jurisdiction, Disqualified Milton Hirsch steals the assets of an estate
and transfers them to Mark Francis Raymond and Carl Rosen who are acting in
criminal conflict of interest a meaningless sham farcical proceeding wherein
there has never been any hearings.
The foregoing unprecedented acts require mandatory not discretionary relief by
Writ of Mandamus and Prohibition.
26.All orders of lawless, disqualified state judge, Milton Hirsch are void and illegal
and abet the theft and embezzlement by Mark Raymond of the assets of an
estate and this Supreme Court must vacate and set aside these orders.
This cesspool of corruption evidencing theft; criminal deprivation of due process;
obstruction of justice and other brazen crimes epitomizes the perversion of the
American legal system that is known as a laughingstock throughout the world.
The lawless American Courts should be the number one urgent red flag mandate
of this Supreme Court.
7

B-3 DISQUALIFIED MILTON HIRSCH IS NOT ONLY CIVILLY AND
CRIMINALLY DEPRIVING PETITIONER OF DUE PROCESS BUT IS
FLAGRANTLY DISPLAYING HIS DISRESPECT FOR THIS SUPREME
COURT THEREBY TRAMPLING THE CIVILIZED RULE OF LAW
Disqualified Milton Hirsch, knowing this Petition is pending in this Supreme
Court evidences his complete disrespect for this Supreme Court by failing to
delay matters in his color of law pending adjudication of this matter by the
Supreme Court.
Moreover, in this heinously fraudulent matter, Disqualified Milton Hirsch; Mark
Raymond and Carl Rosen are criminally depriving Petitioner of her rights and
acting ex parte as MILTON HIRSCH IS DISQUALIFIED AND ACTING
WITHOUT JURISDICTION AND PETITIONER HAS NO REMEDY AS THERE
IS NO JUDGE IN THAT MATTER.
VI.

GLOBAL CONSTITUTIONAL CRISIS

29.As set forth in the Petitions and herein, this exceptional matter constitutes a
global Constitutional crisis:
The failure to follow and failure to entice the law by Federal and state judges
acting above the law resulting in their civilly and criminally depriving
Petitioner of both her Constitutional rights and her inherent human rights
endowed by birth and obstructing Petitioner's justice; and
The attempts by judges acting above the law to keep their unlawful acts
secret by issuance of despicable, self-serving, illegal "gag" orders against
Petitioner that prohibit Petitioner and counsel from reporting crimes, thereby
intentionally and criminally placing Petitioner and counsel in danger and
depriving Petitioner of her first amendment rights to free speech.
30. Petitioner is forced into the immoral and unconscionable position of
LITIGATING UNLAWFUL AND ILLEGAL ACTS OF JUDGES THEMSELVES
ACTING ABOVE THE LAW AND UNDER COLOR OF LAW.

8

The festering lawlessness of public servant American judges and officers of the
court and the failure to hold them accountable has resulting in reporting by the
media that America has become lawless and a rotten carcass. 3
Thompson Reuters has reported that thousands of judges are violating the law
and destroying lives. 4
The bottomless abyss of lawlessness and fraud on, by and in the court is an
international disgrace and blasphemous desecration of America's legal
system.
Petitioner reiterates the non-discretionary relief set forth in the Petitions
mandated under the Constitution; 42 U.S.C. § 1986; and sua sponte. The use of
corrupt courts to steal and strip the property and rights of the public are acts of
a third world country; render the Constitution meaningless and America
lawless.
The matters set forth in this matter are unquestionably the most serious, urgent
and important matters in our country.
In a 2019 Judiciary report, Chief Justice Roberts states:
"As Federalist No. 78 observes, the courts "have neither FORCE nor WILL, but
merely judgment." "I ask my judicial colleagues to continue their efforts to
promote public confidence in the judiciary, both through their rulings and
through civic outreach. We should celebrate our strong and independent
judiciary, a key source of national unity and stability... we should each resolve to
do our best to maintain the public's trust that we are faithfully discharging our
solemn obligation to equal justice under law.
The American Justice System Is Broken I National Review
www.nationalreview.com/2016/01/american-justice...

3

U.S. heading toward lawlessness - Washington Times
www.washingtontimes.com/news/2017/mar/22/us...
Thousands of U.S. judges who broke laws or oaths
https://www.reuters.com > special-report > usa-judges-misconduct Jun 30, 2020
4

With 'judges judging judges,' rogues on the bench have little to ...
https://www.reuters.com > investigates > special-report > usa-judges-deals
9

37. The extrajudicial judges herein have no judgment, no morals and no ethics and
do not promote public confidence in the judiciary.
VII. EXTRAORDINARY AND EXCEPTIONAL CIRCUMSTANCES
38. As set forth in Blacks' law dictionary:
the definition of "extraordinary" is as follows:
"Out of the ordinary; exceeding the usual, average, or normal measure
of degree; beyond or out of the common order rule; not usual, or of a
customary kind; remarkable; uncommon; rare."
the definition of "exceptional circumstances" is as follows:
Conditions which are out of the ordinary course of events; unusual or
extraordinary circumstances.
39. This matter is replete with "exceptional and extraordinary circumstances" of
unlawful acts that shake the entire foundation of the American legal system
starting with the filing of a fabricated sham lawsuit by Respondent built on his
own criminal acts, to criminal and civil deprivation of due process by a judges
acting above the law and a magistrate acting without jurisdiction to the constant
unfurling of undiscoverable ongoing fraud of the court by Petitioner.
40. No amount of technical or administrative procedural tactics can divert or
circumvent from the fact that all orders described herein are illegal, void and the
product of crimes.
41. The languishing of this urgent matter has exacerbated the unconscionable harm
to Petitioner. This matter is a crisis as Petitioner's home and assets have been
illegally garnished on the basis of Respondent's crimes.
42. This extraordinary gross miscarriage of justice is shocking and runs contrary to
every principle of the American legal system.
43. Petitioner reiterates the following examples of Joan Lenard's illegal conduct
that criminally deprives Petitioner of due process; obstructs her justice; and
colludes in the Artifice to Defraud including:

10

her tampering and diverting Petitioner's mail in violation of Federal criminal
laws thereby intentionally denying Petitioner access to the court to appear
and defend her property;
her illegal order "defaulting" Petitioner when Petitioner was not in default.
Reference should be made to the docket wherein Petitioner filed an affidavit
under penalties of perjury attesting to the fact that she was not receiving
court documents that was ignored by Joan Lenard who issued the illegal void
"default" in the very same day. DOCKET ENTRY:
05/07/2015 35 ORDER DIRECTING CLERK TO ENTER DEFAULT
AGAINST DEFENDANT BARBARA STONE
05/07/2015 38 AFFIDAVIT signed by: Barbara Stone by Barbara Stone.
her issuing an order that magistrate Jonathan Goodman had no jurisdiction
to hold an "injury" hearing yet conspiring in his holding of a jurisdiction-less
sham, kangaroo hearing and using the fraudulent "Report and
Recommendation" prepared by Respondent in collusion with Jonathan
Goodman as the sole basis of her illegal void Ex Parte Illegal Void Fraudulent
Judgment against Petitioner.
her issuing the Ex Parte Rights Extinguishment Order illegally depriving
Petitioner of access to any court throughout the country and attempting to
usurp the jurisdiction of this court and cover up her illegal acts by illegally
barring Petitioner from reporting the crimes taking place in this criminal
enterprise.
Magistrate Jonathan Goodman, acting without jurisdiction conducted an
"injury" hearing WHERE HE FOUND NO INJURY.
Instead, he illegally ordered Respondent to create a "Report and
Recommendation" following the illegal hearing where Respondent made his own
perjured findings.
Examples of perjured, fabricated statements and testimony by Respondent that
was recited by the magistrate, acting without jurisdiction in a "Report and
Recommendation" that was taken from the "Report and Recommendation"
11

illegally prepared by Respondent that was the sole basis used by Judge Lenard
in issuing a void judgment includes:
Goodman ignored Judge Lenard's own ruling and 28 USC 636 stating that a
magistrate could not hold a "trial" without consent (which consent was not
provided by Appellant) and held an illegal "trial" without jurisdiction.
On Page 4, Goodman states: "a member of a limited liability company had
accepted Respondent's engagement letter to represent the company".
SUCH COMPANY EXISTS.

NO

This is documented by the official certified

records of the Florida secretary of state attached to the Petitions. No such
member was identified or testified.
On page 8, Goodman states: "Petitioner also used a fake email account to
pose as Respondent and direct threats at Respondent and his business
partner about investigations against their company along with a homophobic
insult at Respondent's daughter's boyfriend"... IT IS PROVEN THAT THESE
EMAILS WERE SENT BY RESPONDENT'S DAUGHTER HERSELF as
shown in direct emails from Respondent's daughter attached to the Petitions.
Goodman's recitations in the fabricated "Report and Recommendation" of
perjured statements of Respondent and the suborned testimony of his
affiliate were the product of an illegal ex parte hearing wherein he acted
without jurisdiction which violated Federal laws prohibiting false statements
and false submissions into a court proceedings. There were no forensic
reports that such emails even exist as they were simply copies of a document
that anyone could create and print and without an iota of proof that tied
Appellant to the emails.
47. Reference should be made to the Petitions setting forth in further detail the
mountain of fraud on and by the court perpetrated herein.

8 U.S. Code § 1324c; 18 U.S. Code § 1038.False information and hoaxes;
18 U.S. Code § 1001.Statements or entries generally; 18 U.S. Code § 1623. False declarations before
grand jury or court.
5

12

This unconscionable, manifest injustice continues to escalate and perpetuate
such that Petitioner is tasked with expending extraordinary time, attention,
detail and incur cost, expenses and financial hardship to file documents in this
and other courts; all the result Petitioner being subjected to a sham lawsuit
masterminded by Respondent that is the product of his own crimes.
VIII. ADEQUATE RELIEF CANNOT BE OBTAINED IN ANY OTHER
FORM OR FROM ANY OTHER COURT
Pursuant to the illegal void Ex Parte Rights Extinguishment Order:
Petitioner is denied remedy in any Federal, state and appellate court
anywhere in the country in violation of her fundamental, inalienable
Constitutional rights;
Petitioner is denied access to any Federal, state and appellate court anywhere
in the country and this Supreme Court in violation of her fundamental,
inalienable Constitutional rights;
This jurisdiction of this Supreme Court has been attempted to be stripped;
Petitioner is denied counsel in violation of her fundamental Constitution
rights;
Petitioner is in danger as she is illegally prohibited from reporting crimes;
Petitioner is being threatened, extorted and intimidated to appear in
extrajudicial courts of extrajudicial judges acting without jurisdiction;
The foregoing unprecedented acts require mandatory not discretionary relief
by Writ of Mandamus and Prohibition.
IX.

PETITIONER RESPECTFULLY OBJECTS AND DOES NOT CONSENT
TO REVIEW OTHER THAN BY THE JUSTICES THEMSELVES

50.Article III, Section I of the Constitution states: "The judicial Power of the United
States, shall be vested in one Supreme Court, and in such inferior Courts as the
Congress may from time to time ordain and establish."
51. The Constitution vests the Supreme Court justices with exclusive judicial power.

13

52.Just as in 28 U.S.C. §636 where consent is required for a magistrate, so too,
Petitioner objects and does not consent to review of this matter by any attorney
or law clerk but only by the Justices.
Supplement One, filed concurrently, sets forth this objection and no consent to
the review of this matter by anyone other than the Justices.
This extraordinary matter of illegal use of the Courts; massive Constitutional;
due process and judicial power abuse threatens the integrity of the legal system
and affects the entire American public.
55.Equitably, morally and legally, this matter mandates sole and exclusive review
by the Supreme Court justices.
56.Article XII D. of the Petitions is reiterated providing that law clerks and
attorneys are bound by Federal laws and legal ethics to report the illegal acts set
forth herein to the proper authorities.
X.

PETITIONER RESPECTFULLY REQUESTS SUA SPONTE RECUSAL
OF JUSTICE CLARENCE THOMAS
Petitioner has set forth illegal, unconscionable and retaliatory conduct of judges
in the 11th district who are overseen by Justice Clarence Thomas.
Petitioner has referenced secretive, insidious relationship among the judges in
this district.
Petitioner respectfully seeks the sua sponte recusal of Justice Clarence Thomas
to avoid any appearance of bias or impropriety.
XI. CONCLUSION

As set forth herein, as illustrated by exceptional and extraordinary and unbridled
lawlessness wherein Petitioner's home, life savings and rights are being criminally
extorted under color of law by judges acting above the law and the lack of remedy in
any other court, it would be a breach of office, a breach of this Court's duty to
protect Respondent and the public and undermine the integrity of the entire legal

14

system for this Court to fail to remedy the manifest injustice and irreparable harm
that is virulent in this matter.
WHEREFORE, Petitioner seeks this Court provide the relief set forth in the
Petitions as follows:
issue the Writ of Prohibition to the 11th Circuit and Joan Lenard prohibiting the
jurisdiction-less enforcement of the extrajudicial Ex Parte Void Illegal
Fraudulent Judgment and Ex Parte Rights Extinguishment Order and issue
the Writ of Mandamus mandating the 11th Circuit and Joan Lenard vacate the
Ex Parte Void Illegal Fraudulent Judgment and Ex Parte Rights
Extinguishment Order and ordering the return of all assets illegally seized by
Respondent;
issue the Writ of Prohibition prohibiting jurisdiction-less enforcement of the
extrajudicial orders relating to the fabricated, fraudulent claim of lien filed by
Roy R. Lustig using the fabricated, fraudulent Ex Parte Void Illegal Fraudulent
Judgment by Southern District Court bankruptcy judge, Laurel Isicoff and issue
the Writ of Mandamus mandating Laurel Isicoff to vacate all such orders and
ordering the return of all assets illegally seized from Petitioner by Lustig, the
trustee, the attorney for the trustee and all other involved parties; and
issue the Writ of Prohibition prohibiting disqualified Judge Carol Lisa Phillips,
and Judge Milton Hirsch from presiding in cases in which they are disqualified
and from exercising extrajudicial powers and issue the Writ of Mandamus
mandating Disqualified Hirsch return all assets fraudulently transferred by the
Disqualified Hirsh Illegal Void Order.
Respectfully Submitted,
Barbara Stone
19 W. Flagler St. Ste. 404
Miami, FL 33130
Tel. No. 786-696-7816
Barbara. stone . usa@gm ail. com

15

CERTIFICATE OF COMPLIANCE
I, Barbara Stone hereby certify that, according to the word-count tool in Microsoft
Word, the Writ of Mandamus and Prohibition consists of 4,491 words, including
footnotes and excluding the sections enumerated by Rule 33. 1(d). The Brief
therefore complies with Rule 33. 1(g).

Barbara Stone
19 W. Flagler St. Ste. 404
Miami, FL 33130
Tel. No. 786-696-7816
Barbara. stone . us a@gm ail.co m

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that the foregoing U.S. Supreme Court Supplemental Brief is
filed in Pacer for filing with the 11th Circuit Court of Appeals and Roy R. Lustig,
mailed to the Clerk of Southern District Court of Florida at 400 N. Miami Ave,
Miami, FL 33128 for filing with Joan Lenard and Jonathan Goodman, emailed to
FLSB-EMERGENCY-FILINGS@flsb.uscourts.gov as required by the Southern
District Court of Florida Bankruptcy court for filing with Laurel Isicoff and filed in
the Florida e-portal for filing with Carol Lisa Phillips and Milton Hirsh on this 19th
day of October, 2020.

Barbara Stone
19 W. Flagler St. Ste. 404
Miami, FL 33130
Tel. No. 786-696-7816
Barbara.stone.usa@gmail.com

16

APPENDIX y,

Case: 20-12510 Date Filed: 08/04/2020 Page: 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-12510-J

In re:
BARBARA STONE,
Petitioner.

On Petition from the
United States District Court for the
Southern District of Florida

Before: MARTIN and JILL PRYOR, Circuit Judges.
BY THE COURT:
Barbara Stone, a private citizen proceeding pro se, has filed an "All Writs Constitutional
Crises Petition and/or Appeal" relating to a civil lawsuit filed against her in 2015 in the U.S.
District Court for the Southern District of Florida. Stone's petition is rambling and difficult to
follow, but she asks us to "set aside" the district court's December 2015 Omnibus Order and its
June 2020 filing restriction order and issue an emergency restraining order and orders for
production. Stone also filed an "Emergency Supplement" to the amended petition, alleging that
the district court's orders amounted to a human rights violation.
The All Writs Act provides that federal courts "may issue all writs necessary or appropriate
in aid of their respective jurisdictions and agreeable to the usages and principles of law." 28 U.S.C.
§ 1651. It gives a "residual source of authority to issue writs that are not otherwise covered by
statute," and, "[w]here a statute specifically addresses the particular issue at hand, it is that

Case: 20-12510 Date Filed: 08/04/2020 Page: 2 of 2

authority, and not the All Writs Act, that is controlling." Pa. Bureau of Corr. v. U.S. Marshals
Serv., 474 U.S. 34, 43 (1985). The All Writs Act is an extraordinary remedy that "invests a court
with a power that is essentially equitable and, as such, not generally available to provide
alternatives to other, adequate remedies at law." Clinton v. Goldsmith, 526 U.S. 529, 537 (1999).
In a civil case, a plaintiff may appeal a district court's judgment by filing a notice of appeal
within 30 days of the judgment's entry. 28 U.S.C. § 1291; Fed. R. App. P. 4(a)(1)(A). An
injunctive order restricting a vexatious litigant's ability to file documents in the district court may
be immediately appealed as the entry of an injunction under 28 U.S.C. § 1292(a)(1). Procup v.
Strickland, 792 F.2d 1069, 1070 n.1 (11th Cir. 1986) (en banc).
Here, it is not clear what type of relief Stone seeks under the All Writs Act, as she has
failed to specify any specific type of writ. Nevertheless, to the extent Stone challenges the district
court's entry of a final judgment in the plaintiffs favor, as well as the filing restriction it placed
on her, she had, and has taken, the adequate alternative remedy of appealing both orders. See 28
U.S.C. § 1291; Fed. R. App. P. 4(a)(1)(A); Pa. Bureau of Corr., 474 U.S. at 43; Clinton, 526 U.S.
at 537; Procup, 792 F.2d at 1070 n. 1 . Accordingly, Stone's petition is hereby DENIED.

2

APPENDIX

t

Filing # 115140355 E-Filed 10/16/2020 06:57:27 PM

IN THE CIRCUIT COURT OF THE ELEVENTH JUDICIAL
CIRCUIT IN AND FOR MIAMI-DADE COUNTY, FLORIDA
CASE NO: 2019-004417-CP-02
SECTION: PMH06
JUDGE: Milton Hirsch
IN RE: Stone, Helen
Decedent

ORDER AUTHORIZING PAYMENT OF ATTORNEY'S FEES AND EXPENSES
THIS CAUSE having come before the court on Nelson Mullins Broad and Cassel's Petition for
Order Authorizing Payment of Attorneys' Fees and Expenses, and the court having reviewed said Petition
and the Personal Representative's consent thereto, and being otherwise fully advised in the premises, it is
ORDERED AND ADJUDGED as follows:
The sum of $36,911.00 is a reasonable fee for the services of Nelson Mullins Broad and
Cassel and expenses in the amount of $92.59 for the period of December 2, 2019 through August 31, 2020;
Nelson Mullins Broad and Cassel is entitled to payment for fees in the amount of $36,911.00
and expenses in the amount of $92.59; and
IberiaBank, as depository for the Estate of Helen R. Stone, is authorized to issue a check in
the amount of $37,003.59 to Nelson Mullins Broad and Cassel and to deliver said check to Nelson
Mullins Broad and Cassel, One Biscayne Tower., 21st Floor, 2 South Biscayne Boulevard, Miami, FL
33131.
DONE and ORDERED in Chambers at Miami-Dade County, Florida on this 16th day of
October, 2020.

,20 9-00,

1P

0-7.6-00 6:53

PIN/

2019-004417-CP-02 10-16-2020 6:53 PM
Hon. Milton Hirsch
CIRCUIT COURT JUDGE
Electronically Signed

Case No: 2019-004417-CP-02

Page 1 of 5

IN THE SUPREME COURT OF THE UNITED STATES
CASE NO: 20-269
IN RE BARBARA STONE, PETITIONER

SUPPLEMENT ONE
TO THE EMERGENCY EXTRAORDINARY
PRECEDENT SETTING PETITION AND SUPPLEMENTAL BRIEF
SUBMITTED CONCURRENTLY HEREWITH
This extraordinary precedent setting matter sets forth the prima facie unlawful
use of the U. S. Courts, massive Constitutional and human rights violations, and
abuse of power, a dangerous constitutional crisis and is of manifest and
overriding public importance mandating its oversight and review solely by the
Honorable Justices in the Supreme Court, not any law clerk or attorney.
The U.S. Court website 1 provides:
"Each Justice is permitted to have between three and four law clerks per Court
term. These are individuals who, fairly recently, graduated from law school,
typically, at the top of their class from the best schools. Often, they have served
a year or more as a law clerk for a federal judge. Among other things, they do
legal research that assists Justices in deciding what cases to accept; help to
prepare questions that the Justice may ask during oral arguments; and assist
with the drafting of opinions."
"While it is the prerogative of every Justice to read each petition
for certiorari himself/herself, many participate in what is informally known as
the "cert pool." As petitions for certiorari come in on a weekly basis, they are
divided among the participating Justices. The participating Justices divide their
petitions among their law clerks. The law clerks, in turn, read the petitions

1

https://www .uscourts.gov/about-federal-courts/educational-resource s/about-e ducationaloutre ach/activity-resources/supreme- 1

1

assigned to them, write a brief memorandum about the case, and make a
recommendation as to whether the case should be accepted or not. The Justice
provides these memoranda and recommendations to the other Justices at a
Justices' Conference."
It is reported that an estimated 16,000 pleading are filed each year with the
Supreme Court.
Clearly, there is a huge crisis in adherence to and enforcement of the law by all
state, Federal and Appellate Court judges.
The America legal system is glaringly not working.
American lives are being destroyed by Judges themselves, the very public
servants who are responsible to protect the public and provide remedy.
It is apparent that few members of the public would go to the extraordinary
effort and expense required to file in the United States Supreme Court to seek
justice and remedy unless they have been subjected to grave injustice.
Moreover, by the time most matters reach the U.S. Supreme Court, they have
accumulated countless layers of contradictory orders and obstruction of justice
such as the mountain of fraud on and by the court in Petitioner's matter, as
exemplified by and not limited to the following:
The perjured fabricated lawsuit filed by Respondent wherein he fabricates
"injury" on the basis of not being hired by a company that does not exist;
Respondent's obscene materials he himself created that he fraudulently
attributes to Petitioner;
The interference and tampering with Petitioner's mail by Respondent and the
extrajudicial acts of judge Joan Lenard in criminal violation of Federal law;
The fraudulent order of Joan Lenard holding Petitioner in default when
Petitioner is not in default, having been intentionally and criminally deprived
of her mail by Respondent and extrajudicial acts of Joan Lenard;
2

e. The illegal ex parte hearing by a magistrate, Jonathan Goodman, acting in
violation of an order of Joan Lenard and Federal law 28 U.S.C. 636;
The finding of no injury by Jonathan Goodman at the illegal, ex parte,
fraudulent hearing who thereafter criminally colluded with Respondent in
the issuance of a scam "report and recommendation" fabricated by
Respondent.
The use of the scam, fabricated "report and recommendation" criminally
prepared by Respondent by Joan Lenard to issue a fraudulent void judgment
against Petitioner that is the product of crimes by Respondent.
The issuance of a fraudulent void order stripping Respondent of her rights to
access any court in the United States to seek remedy.
The attempt to usurp the power of this Supreme Court by Joan Lenard.
The attempt of the 11th Circuit judges to rule without a quorum resulting in
an illegal void order; thereby violating an elementary, basic rule of law.
It is unconscionable and shocking that the outcome of these life destroying cases
are left in the hands of freshly graduated, inexperienced law clerks who have no
experience in dealing with the actual court proceedings and trials and the
myriad of activities taking place in the courts by judges and attorneys violating
the law, acting with bias and prejudice, fabricated the facts and law and the
many tactics used by public servants acting under color of law.
Furthermore, these freshly graduated law clerks have no experience in handling
the cases filed in the Supreme Court that by their very nature have been
subjected to multiple layers of contradictory, illegal and/or
11.In addition, these inexperienced law clerks and attorneys are not judges or
magistrates and acting without jurisdictional authority under the Constitution.

3

12.1n addition, these inexperienced law clerks and attorneys have less authority
than even magistrate judges as they are not judges or magistrate judges yet they
are acting in the capacity of magistrates and predisposing the outcome of the
cases by their "report and recommendations" that are not authorized by the
Constitution or by law and without consent of the parties.
13. Petitioner respectfully sets forth grave objection and no consent to any review
and/or recommendation by any law clerk; attorney or party other than the
Justices themselves as this matter involves:
the most important matters in our country: i.e. the failure to follow and
enforce the law by judge resulting in an American legal system that is
reported as lawless;
precedent setting matters regarding the use of the courts to perpetrate
criminal enterprises and artifices to defraud;
massive Constitutional and human rights abuses and violations.
14. It is imperative that these matters are known to and redress made by the
Justices as they threatened the integrity of the entire legal system and affect the
entire American public.
15.Petitioner requests any law clerks and attorneys involved identify themselves
below and acknowledge they have not participated or been involved whatsoever
in this matter:
Names of Law Clerks and Attorneys:

16. In addition, Petitioner has documented concerns about complicity by the
Eleventh Circuit Court of Appeals and improper and hidden relationships
between all judges.

4

17. Petitioner respectfully seeks the sua sponte recusal of Justice Clarence Thomas
so to avoid any perception; semblance or appearance of impropriety and/or taint
to the reputation of Justice Clarence Thomas by reason of his assignment as the
Justice to the Eleventh Circuit Court of Appeals.
Respectfully Submitted,

Barbara Stone
19 West Flagler St. Ste. 404
Miami, FL 33130
Tel. No. 786-696-7816
Barbara. stone . us a@gm ail. com

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that the foregoing Supplement One has been filed in Pacer for
filing with the 11th Circuit Court of Appeals and Roy R. Lustig, mailed to the Clerk
of Southern District Court of Florida at 400 N. Miami Ave, Miami, FL 33128 for
filing with Joan Lenard and Jonathan Goodman, emailed to FLSB-EMERGENCYFILINGS@flsb.uscourts.gov as required by the Southern District Court of Florida
Bankruptcy court for filing with Laurel Isicoff on this 19th day of October, 2020.
a,A.J
Barbara Stone

5

